<html>
<title> - A Truly Inclusive Society: Encouraging the Ability in Disability</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


115th Congress }                            Printed for the use of the                       
                        
 2nd Session   }      Commission on Security and Cooperation in Europe
                                             
======================================================================

	                     A Truly Inclusive Society:
	                Encouraging the Ability in Disability


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]




                         SEPTEMBER 24, 2018

                           Briefing of the
          Commission on Security and Cooperation in Europe
------------------------------------------------------------------------
                         Washington: 2019






      Commission on Security and Cooperation in Europe
                  234 Ford House Office Building                                               
                   Washington, DC 20515
                      202-225-1901
                      <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5c3f2f3f391c313d3530723433292f39723b332a">[email&#160;protected]</a>
                      http://www.csce.gov
                         @HelsinkiComm

                                      
                                      
                                      
            Legislative Branch Commissioners



              HOUSE				SENATE
CHRISTOPHER H. SMITH, New Jersey 	ROGER WICKER, Mississippi,
          Co-Chairman			  Chairman
ALCEE L. HASTINGS, Florida		BENJAMIN L. CARDIN. Maryland
ROBERT B. ADERHOLT, Alabama		JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas		CORY GARDNER, Colorado
STEVE COHEN, Tennessee			MARCO RUBIO, Florida
RICHARD HUDSON, North Carolina		JEANNE SHAHEEN, New Hampshire
RANDY HULTGREN, Illinois		THOM TILLIS, North Carolina
SHEILA JACKSON LEE, Texas		TOM UDALL, New Mexico
GWEN MOORE, Wisconsin			SHELDON WHITEHOUSE, Rhode Island
                        
          
                 

               Executive Branch Commissioners
               
               
                    DEPARTMENT OF STATE
                   DEPARTMENT OF DEFENSE
                  DEPARTMENT OF COMMERCE
                            [II]



ABOUT THE ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE  


    The Helsinki process, formally titled the Conference on Security 
and Cooperation in Europe, traces its origin to the signing of the 
Helsinki Final Act in Finland on August 1, 1975, by the leaders of 33 
European countries, the United States and Canada. As of January 1, 
1995, the Helsinki process was renamed the Organization for Security 
and Cooperation in Europe (OSCE). The membership of the OSCE has 
expanded to 56 participating States, reflecting the breakup of the 
Soviet Union, Czechoslovakia, and Yugoslavia.
    The OSCE Secretariat is in Vienna, Austria, where weekly meetings 
of the participating States' permanent representatives are held. In 
addition, specialized seminars and meetings are convened in various 
locations. Periodic consultations are held among Senior Officials, 
Ministers and Heads of State or Government.
    Although the OSCE continues to engage in standard setting in the 
fields of military security, economic and environmental cooperation, 
and human rights and humanitarian concerns, the Organization is 
primarily focused on initiatives designed to prevent, manage and 
resolve conflict within and among the participating States. The 
Organization deploys numerous missions and field activities located in 
Southeastern and Eastern Europe, the Caucasus, and Central Asia. The 
website of the OSCE is: <www.osce.org>.


ABOUT THE COMMISSION ON SECURITY AND COOPERATION IN EUROPE


    The Commission on Security and Cooperation in Europe, also known as 
the Helsinki Commission, is a U.S. Government agency created in 1976 to 
monitor and encourage compliance by the participating States with their 
OSCE commitments, with a particular emphasis on human rights.
    The Commission consists of nine members from the United States 
Senate, nine members from the House of Representatives, and one member 
each from the Departments of State, Defense and Commerce. The positions 
of Chair and Co-Chair rotate between the Senate and House every two 
years, when a new Congress convenes. A professional staff assists the 
Commissioners in their work.
    In fulfilling its mandate, the Commission gathers and disseminates 
relevant information to the U.S. Congress and the public by convening 
hearings, issuing reports that reflect the views of Members of the 
Commission and/or its staff, and providing details about the activities 
of the Helsinki process and developments in OSCE participating States.
    The Commission also contributes to the formulation and execution of 
U.S. policy regarding the OSCE, including through Member and staff 
participation on U.S. Delegations to OSCE meetings. Members of the 
Commission have regular contact with parliamentarians, government 
officials, representatives of non-governmental organizations, and 
private individuals from participating States. The website of the 
Commission is: <www.csce.gov>.



                        A Truly Inclusive Society:

                 Encouraging the Ability in Disability


                           September 24, 2018


                                                                 Page
                              PARTICIPANTS

    Allison Hollabaugh Parker, General Counsel, Commission for Security 
and Cooperation in Europe  .......................................     1

    Sara Hart Weir, President and CEO, National Down Syndrome Society..2

    Kayla McKeon, Manager of Grassroots Advocacy, National Down 
Syndrome Society.......................................................4

    Dr. Sheryl Lazarus, Director, The TIES Center......................6

    John Cronin, Entrepreneur with Down Syndrome and Co-Founder of 
John's Crazy Socks.....................................................8

    Mark Cronin, Co-Founder and President of John's Crazy Socks........9


 
                     A Truly Inclusive Society:
                  Encouraging the Ability in Disability
                              ----------                              

                           September 24, 2018




    The briefing was held at 3:30 p.m. in Room 2220, Rayburn House 
Office Building, Washington, DC, Allison Hollabaugh Parker, General 
Counsel, Commission for Security and Cooperation in Europe, presiding.
    Panelists present: Allison Hollabaugh Parker, General Counsel, 
Commission for Security and Cooperation in Europe; Sara Hart Weir, 
President and CEO, National Down Syndrome Society; Kayla McKeon, 
Manager of Grassroots Advocacy, National Down Syndrome Society; Dr. 
Sheryl Lazarus, Director, The TIES Center; John Cronin, Entrepreneur 
with Down Syndrome and Co-Founder of John's Crazy Socks; and Mark 
Cronin, Co-Founder and President of John's Crazy Socks.

    Ms. Parker. Good afternoon. My name is Allison Hollabaugh Parker. I 
am general counsel at the Helsinki Commission, also known as the 
Commission on Security and Cooperation in Europe, and it's my pleasure 
to welcome you this afternoon to our briefing on creating ``A Truly 
Inclusive Society: Encouraging the Ability in Disability.''
    As you may know, 57 million Americans are living with disabilities, 
400,000 of them with Down syndrome. Almost three decades ago, President 
Bush signed into law the Americans With Disabilities Act (ADA). This 
provided individuals with disabilities access to the same employment 
opportunities and benefits available to people without disabilities, 
encouraged employers to make reasonable accommodations, required state 
and local governments to make all services and programs available to 
individuals with disabilities, prohibited places of public 
accommodation from discriminating against individuals with 
disabilities, and directed businesses to make reasonable modifications 
when serving individuals with disabilities.
    In so doing, the ADA has broken down many barriers blocking the 
full participation of individuals with disabilities in their 
communities, in the economy, and across the United States, in every 
sphere in which they would like to participate. While the United States 
has an exemplary system of integration, empowerment, and protection, 
individuals with intellectual disabilities, like Down syndrome, have 
recommended numerous further improvements to U.S. law in order to fully 
realize the goals of the Americans With Disabilities Act.
    This briefing will explore best practices developed federally and 
locally in the United States to empower and integrate individuals with 
intellectual disabilities. We'll also discuss changes that will enable 
individuals with disabilities to reach their full potential. The law on 
this subject is a work in process and I look forward to hearing from 
our five panelists this afternoon, the first of whom is Sarah Hart 
Weir. She is the president and CEO of the National Down Syndrome 
Society (NDSS), which is the largest nonprofit in the United States 
dedicated to advocating for people with Down syndrome and their 
families. As president, she oversees the organization's mission, 
vision, and administration. Ms. Weir works each day to ensure people 
with Down syndrome are represented at every table where critical 
decisions are made, whether it's the White House, the U.S. Congress, 
the United Nations, or in state capitols across the country. Ms. Weir 
has a Bachelor of Arts in psychology and political leadership from 
Westminster College and a Master of Science in public policy and 
management from Carnegie Mellon University's Heinz College.
    Ms. Weir.
    Ms. Weir. Good afternoon. My name is Sarah Hart Weir and I'm the 
president and CEO of the world's largest Down syndrome advocacy 
organization, the National Down Syndrome Society.
    I have had the opportunity to work with people with Down syndrome 
for almost 20 years and was inspired to get involved in this amazing 
community from my best friend, Kasey, who happens to have Down syndrome 
and lives in Kansas.
    On behalf of NDSS, the leading human rights organization for all 
individuals with Down syndrome, it's an honor to sit at this table 
today to present to the Helsinki Commission with Dr. Lazarus, one of 
our favorite NDSS #DSWORKS employment partners, Mark and John Cronin 
from John's Crazy Socks, and, of course, my esteemed colleague Kayla 
McKeon.
    At NDSS, we believe if you're not at the table you're on the menu. 
I personally want to thank the Helsinki Commission for today's 
imperative discussion and lending a critical voice to a population 
that, even in our great nation, the United States of America, and still 
in 2018 is far more discriminated against than any other community.
    Today's topic, ``A Truly Inclusive Society: Encouraging the Ability 
and Disability,'' is something we live and breathe at the National Down 
Syndrome Society as we strive to achieve equality for all Americans 
with Down syndrome in the United States.
    Our great nation's first motto, ``E Pluribus Unum,'' is embedded in 
every fabric of our country's rich history. The phrase is used on the 
currency, the seal of the president, vice president, the U.S. Congress, 
the U.S. House, the U.S. Senate, and on the seal of our Supreme Court. 
It is cemented in our country's rich history, culture, and values. 
Life, liberty and the pursuit of happiness comes from the Latin phrase 
``out of many, one.'' From this belief springs a unifying purpose for 
our Nation: equality. Unfortunately, in the United States and around 
the world, people with Down syndrome and other disabilities are not 
treated as one.
    At NDSS, we believe no matter your differences or your abilities 
you should have a fair shot at the American dream. And we work hard 
each and every day to ensure America's motto is upheld for people with 
Down syndrome and that ``one'' truly means one.
    At NDSS, a fourth of our staff have Down syndrome and work across 
all of our programs and departments. Not a single decision within our 
organization is made without their input and the input of our self-
advocates.
    At NDSS, our programs--including our National Advocacy and Policy 
Center here in Washington, DC, our #DSWORKS employment program, and 
our health promotion and resources program--each of these programs are 
dedicated to advancing proactive policies and providing invaluable 
resources on issues across the lifespan, from birth to old age, and 
across five key critical pillars: health care and research, education, 
employment, community integration, and economic self-sufficiency.
    Next year, we will celebrate NDSS's 40th anniversary. During this 
time, one of the most important advancements for individuals with Down 
syndrome has been an increased access to advancements in health care. 
This result has led to a dramatic increase in the life expectancy for 
people with Down syndrome. In 1983, it was 25. Today it's well into the 
60s. And this is a result of early detection of co-occurring 
conditions, like congenital heart defects, quality dental care and, of 
course, inclusion.
    From its origins in 1979, NDSS has been involved in so many Federal 
and state advocacy efforts as well as judicial efforts that have helped 
individuals with disabilities become more included in society: The 
passage of IDEA that guarantees students with disabilities the right to 
be educated alongside their peers in their neighborhood school; the 
Americans With Disabilities Act, or ADA, that prohibits discrimination 
against individuals with disabilities in all areas of public life and 
the subsequent Olmstead Supreme Court decision that requires public 
agencies to provide services in the most integrated settings; of course 
the shutdown of Willowbrook in New York, which was brought to the 
forefront of the public's conscientiousness to shut down institutions 
across the country; and something we at NDSS are extremely proud of, 
the landmark passage of the Stephen Beck Jr. Achieving a Better Life 
Experience Act, best known as the ABLE Act, which allows individuals 
with disabilities to save their own money for the future.
    These accomplishments and milestones were vital to ensure 
individuals with disabilities have access and adequate supports to the 
basic liberties those without disabilities enjoy: education, community 
integration, housing, employment, and savings.
    Despite these significant advancements, we have a long way to go. 
People with Down syndrome are still held back and confined to laws that 
were put into place when we were still institutionalizing people with 
disabilities, the life expectancy was very, very low and a time when 
perceptions of people with Down syndrome were not even realized.
    Still, today, individuals with disabilities still do not have 
access to marriage equality. Individuals with disabilities cannot 
maintain their vital benefits while working, despite--and you'll hear 
from Kayla and John--being ready, willing, and able to work. Though we 
fought for IDEA, many students do not have the access to inclusive 
education to which they are entitled to and is the basis of life in our 
schools each and every day.
    Many cannot choose where they want to live and housing options are 
extremely low. And many are still not economically self-sufficient, 
despite ABLE accounts being open to qualifying individuals across the 
Nation.
    Outrageously, many are still getting paid way below the minimum 
wage. We still have Section 14(c) of the Fair Labor Standards Act, a 
law that was put in place in 1938, where businesses can apply for wage 
certificates from the Department of Labor to pay individuals with 
disabilities way below the Federal minimum wage, sometimes as low as 30 
cents an hour. Something we at NDSS are advocating very aggressively 
for is the passage of the TIME Act led by Congressman Greg Harper. Last 
year, NDSS launched our campaign to end #LawSyndrome, to draw attention 
to these issues and to advocate for change.
    Down syndrome does not hold Kayla, John or any of our friends and 
loved ones with Down syndrome back. It's truly these antiquated laws 
that are preventing individuals with Down syndrome from reaching their 
full potential. And we at NDSS will not stop until every single 
American with Down syndrome has the same rights as every other 
American.
    One of my proudest accomplishments at NDSS is ensuring individuals 
with Down syndrome are not even--not just part of our incredible team 
and wonderful organization, but they are at every table where key 
decisions about their future are made. When you have a seat at the 
table, you have a say in those decisions and how they are made. When 
it's your table, you make the decisions. This is how we end 
#LawSyndrome.
    I'm honored to introduce--and I know Allison will as well and let 
Kayla follow--my colleague, who has not only earned a seat at the 
table, she owns the table and she owns Capitol Hill.
    Thank you, Allison, and the members of the Helsinki Commission and 
staff for making today possible.
    Ms. Parker. And thank you, Ms. Weir, for the long and hard work of 
NDSS to ensure that we continue to move forward in the United States in 
the advancement of human and civil rights for individuals with 
intellectual disabilities.
    I'd like to next introduce Kayla McKeon.
    Am I saying that correctly?
    Ms. McKeon. Yes.
    Ms. Parker. She is the first registered lobbyist in the United 
States with Down syndrome and she's a member of the Down Syndrome 
Society's Self-Advocate Advisory Board where she serves as manager of 
grassroots advocacy. Prior to joining the NDSS team, she worked for 
Congressman John Katko from New York. Ms. McKeon is also a Special 
Olympics athlete and a Special Olympics congress member. In 2011, she 
competed in the Special Olympic World Games in Athens, Greece, winning 
a silver and a bronze medal.
    Kayla.
    Ms. McKeon. And thank you, Allison.
    And good afternoon. And to echo Sarah's words, thank you to Allison 
and the Helsinki Commission for letting me speak today.
    My name is Kayla McKeon and I am the manager of grassroots advocacy 
at the National Down Syndrome Society and I am the first registered 
lobbyist who just happens to have Down syndrome.
    Down syndrome doesn't define me and it definitely does not stop me. 
What limits me and my fellow advocates and friends with Down syndrome--
as Sarah mentioned, #LawSyndrome is a series of very old and antiquated 
laws that were passed when I would not have lived past my adolescence 
or even my childhood, and even if I did, I would not have left the 
hospital with my parents because people with Down syndrome were still 
being institutionalized. These laws were put in place when the social 
acceptance of individuals with disabilities was at an all-time low.
    I was lucky in my upbringing in Syracuse, New York. When I was 18 
months old, my parents involved me in an early education program. I 
progressed through school alongside my classmates and graduated at 18 
as soon as inclusive education became possible. I was always in an 
inclusive setting. I won't deny there were bumps and stumbling blocks 
along the way, but my parents always thought it was best for me to be 
included with my classmates and placed in settings that challenged me 
to reach my highest potential. And there were times when they pushed 
me, but it was only because they knew I could succeed.
    I earned awards in 8th and 9th grades--character, commitment and 
courage--as well as in English and math. My final grade for algebra was 
in the 90s. I got a 93 in a math regent's exam. So if you are familiar, 
you know how tough that was. [Laughter.]
    Later, an agency known as Vocational and Educational Services for 
Individuals with Disabilities, or VESID, and my high school had set up 
a program to take an office technology program. It was a 6-month 
certificate program for adults. They arranged it where I could do it--
go through it twice. I passed the program, earned a certificate and, as 
a result, I am very fast on the keyboard. I was even the commencement 
speaker.
    I also attended Onondaga Community College taking some noncredit 
courses. But I thought to myself, does it make sense I'm doing all the 
work without earning any credits? But I like the classes, so I began 
taking one class per semester for credit. I can happily say I am now 
more than halfway to earning my Associate's degree. I started back in 
August. I love taking classes with my peers. Many of my classmates are 
a little bit younger than me, but so what?
    I started advocating a number of years ago. I started advocating on 
laws about the differently abled by going to elementary schools, going 
to middle schools, colleges, and the schools of nursing. I try to 
motivate them to do the best that they can do. My message to kids is to 
persevere. I am who I am today partly because I was included with my 
peers throughout my childhood.
    One day in Syracuse, I met John Katko at a baseball game. He was 
running for the U.S. House of Representatives. He handed me his 
business card, so I handed him mine. He called me later and said if he 
was elected he wanted me to come and intern for him. When he won, I 
became an intern in the Syracuse office. I represented him at different 
events and did office work. In June of last year, he asked me to go 
with him to a disability conference in Washington. We didn't realize at 
that time it was with the National Down Syndrome Society. It was there 
at the end of the meeting that Sarah Hart Weir, our president and CEO 
of NDSS, offered me the job of manager of grassroots advocacy. I 
started last October.
    With my position as the first registered lobbyist with Down 
syndrome, I go to Capitol Hill and speak to many members of Congress 
and their staff on issues that are very important to me. I helped lobby 
to pass the original ABLE Act as a volunteer for NDSS and now the ABLE 
to Work Act and the ABLE Financial Planning Act as a lobbyist. These 
laws allow me and my friends, the differently abled, to have savings 
accounts and meaningful employment without giving up our benefits.
    We are now tirelessly working on ending #LawSyndrome. Down syndrome 
doesn't stop us, it never stops us. And there are some old, antiquated 
laws that hold us back. One example is the 80-year-old provision with 
the Fair Labor Standards Act, known as Section 14(c) that Sarah had 
mentioned. People like me are still getting paid cents an hour while 
other individuals performing the same task that are paid at least 
minimum wage. These issues segregate us from the rest of society. We 
are still viewed as ``less than.''
    Society is ready to move past these laws. When will the government 
keep up? [Laughter.]
    We still have a long way to go for individuals with Down syndrome 
to be fully included in society. To me, having Down syndrome is who I 
am, but it has never stopped me from achieving my own hopes, dreams and 
passions. What I want for my life and all individuals with disabilities 
is for us to be treated just like everyone else, an opportunity to live 
the American dream.
    Thank you. [Applause.]
    Ms. Parker. Thank you, Kayla. I have no doubt that you will achieve 
all that you set your heart and your mind to do.
    Ms. McKeon. Thank you.
    Ms. Parker. Next we have Dr. Sheryl Lazarus. She is the director of 
the TIES Center at which she conducts research and provides technical 
assistance on educational change that will support the integration of 
all students into inclusive learning settings. She addresses barriers 
to inclusion and works to build consensus and capacity among 
practitioners and policymakers for sustainable inclusion. Dr. Lazarus 
has published more than 200 articles and reports, including on the 
instruction and assessment of students with disabilities and English 
learners with disabilities.
    Please welcome Dr. Sheryl Lazarus.
    Dr. Lazarus. Thank you. I would like to thank the Helsinki 
Commission for the opportunity to talk with you today. I'm the director 
of TIES Center. TIES is funded by the U.S. Department of Education and 
is the national technical assistance center on inclusive practices and 
policies. Its purpose is to create sustainable changes to educational 
systems so that students with the most significant cognitive 
disabilities can fully engage in the same instructional and 
noninstructional activities as their general education peers, while 
being instructed in ways that meet their individual needs.
    Expectations for students with disabilities in the United States 
historically have been low, but several laws have encouraged a more 
inclusive educational system. Beginning in 1975, Public Law 94-142 set 
a precedent for inclusive education with its least-restrictive 
environment clause. The Individuals With Disabilities Education Act of 
1997, which is often referred to as IDEA, says that students with 
disabilities have the right to learn the general curriculum based on 
the same standards as their peers who do not have disabilities.
    The most recent reauthorization of IDEA, as well as the 2015 
reauthorization of the Elementary and Secondary Education Act, also 
known as the Every Student Succeeds Act, or ESSA, states that education 
must be designed to promote progress in the general education 
curriculum.
    IDEA also mandates that students with disabilities be provided with 
a free and appropriate public education which includes both special 
education and related services, and that students are to be educated in 
the least-restrictive environment. This creates a legal presumption 
that the general education setting is the default unless the child 
cannot be educated satisfactorily there, even after the necessary 
support is provided.
    These laws and others provide the underpinnings of inclusive 
education in the United States, but the real heroes are the individuals 
with disabilities, their families, and advocates. They have exercised 
their rights, and sometimes had to push, shove, and hold the 
educational system to what the law required, though they must consider 
themselves fortunate to be in a country in which individuals with 
disabilities and their families have the legal right to disagree with 
schools and the government.
    Next, I'll discuss two critical components that support sustainable 
inclusion for all students. The first is raising expectations. It's 
important to note that students with the most significant cognitive 
disabilities are very diverse. For example, more students with 
significant cognitive disabilities can read than you might think. Two-
thirds are readers. Unfortunately, in the past, students with the most 
significant cognitive disabilities often were only taught functional 
skills such as how to care for themselves.
    The curriculum started to change in the early 2000s when 
accountability for academic performance for students with disabilities 
was strengthened. As teachers introduced content similar to what peers 
were learning, students with the most significant cognitive 
disabilities surprised us with what they could do. We heard over and 
over, who knew that these students could learn to read and do math and 
social studies and science?
    A second critical component that supports inclusion is what we call 
communicative competence. Most students with the most significant 
cognitive disabilities communicate verbally just like everyone else. 
However, a few students communicate in other ways or show minimal 
response to stimuli. Students who lack a consistent mode of 
communication are often served in segregated educational settings 
because many teachers feel unprepared to support them. A key to 
successful inclusion and better outcomes is getting a communications 
system in place, ideally by kindergarten or the early primary grades.
    Here is an example which illustrates how a commitment to building 
communicative competence helps enable students to thrive in inclusive 
contexts. Jaimar Fish is a middle school student in Danville, Kentucky. 
He has multiple disabilities. He did not have a consistent 
communication system. He gets along well with other students, but it 
was difficult for him to develop relationships with them because he 
could not communicate. His educational team addressed his 
communications needs by first figuring out what he enjoyed and might 
want to communicate about. Then they gave him what we refer to as an 
augmentative and alternative communication device. In his case, this is 
a simple motion-detection switch. It is activated by his smallest 
movements and translates these movements into verbal language. Now 
Jaimar can respond to questions during math, reading, and other 
classes, talk with his friends about his likes and dislikes, and is one 
of the group.
    In addition to raising expectations and communicative competence, 
there are many other components of successful inclusion, such as high-
quality, accessible instructional resources and providing training and 
professional development to all teachers so that they can confidently 
instruct students with the most significant cognitive disabilities in 
inclusive settings. Please see my written statement for additional 
details.
    Research has shown us the path to successfully educating all 
students, including those with the most significant cognitive 
disabilities. And the United States has taken some steps in that 
direction, but we need to have the commitment to make sustainable 
inclusion happen for all students. To improve outcomes for kids, the 
behavior of adults needs to change. There needs to be shared 
responsibility across educators for all students with all students 
being held to high expectations. Together, we can create a future that 
supports the learning of all students in inclusive settings, which will 
lead to a future with communities where all individuals are valued 
members.
    Thank you.
    Ms. Parker. Thank you, Dr. Lazarus. Thank you for the very 
practical suggestions that you've both developed and shared with us 
today.
    Next, we have John Lee Cronin. John is a 22-year-old man full of 
life and aspirations, who also happens to have Down syndrome. His love 
of colorful and fun socks and desire to perform meaningful work 
inspired him to found a new business, John's Crazy Socks. John is the 
chief happiness officer of John's Crazy Socks. John is a graduate of 
Huntington High School and a Special Olympics athlete.
    John.
    Mr. J. Cronin. Good afternoon. My name is John Cronin and I am the 
co-founder and chief happiness officer of John's Crazy Socks. I come 
here to stand up for people with Down syndrome and all people with 
different abilities.
    I have Down syndrome and Down syndrome never held me back. I am 22 
years old and I work hard every day to show the world that people with 
Down syndrome are ready, willing, and able to work. Give us a chance 
and we can be successful.
    You may have heard about John's Crazy Socks. We have a mission to 
spread happiness. We have a good story, but we are a good business, 
too. We offer 2,300 different socks. We have shipped our socks to every 
state and 80 different countries. This year, we will ship over 170,000 
orders and earn over $6 million. I may be cute, but I run a serious 
business.
    I started this business with my dad, Mark. It was my idea and I 
came up with the name. My dad--my dad--believed in me and he gave me a 
chance. I love my dad. I work hard every day. I love my business. And 
let me tell you why I started John's Crazy Socks.
    In the fall of 2016, I began my last year of school and needed to 
decide what I would do. When school ended, I had received a good 
education at Huntington High School. I was healthy and ready to go. I 
looked around, but I saw few choices and opportunities. I knew I could 
do more. I wanted a good job just like my brothers, Patrick and Jamie. 
I decided to create my own--my own job. I told my dad that I wanted--I 
wanted to go into business with him. I came up with the idea to sell 
crazy socks because I had always worn and loved colorful and fun socks. 
We opened John's Crazy Socks in December 2016. We were entrepreneurs 
and we took a chance.
    Now everyone wears my socks, even the movie stars, prime ministers 
and presidents. We have created 35 jobs and 18 of my colleagues have a 
different ability. We make films that have been seen over 4 million 
times. We have raised over $135,000 for our charity partners. We are 
making John's Crazy Socks a success, and we owe it to our colleagues. I 
can be in my own business because I had a great teacher. I want to do a 
shout-out to Dr. Erica Murphy-Jesson and Patricia Klee, my speech 
teacher. I can lead my own business because I played Special Olympic 
sports. I can lead my own business because my dad gave me a chance.
    I want you to know what people like me can do. Give us a chance and 
watch what we can do. [Applause.]
    Ms. Parker. Thank you, John. I'm so glad that you took that 
business risk and had the courage to create your own opportunity 
because it is changing the world.
    Mr. J. Cronin. Thank you so much.
    Ms. Parker. Next we have Mark X. Cronin, who is the co-founder of 
John's Crazy Socks along with John. He serves as the business's 
president and developed the social enterprise model for the business. 
Mark spent much of his earlier career in the health care field leading 
management and technology firms seeking to improve health care to the 
poor and strengthen doctor-patient relations. He's also led political 
campaigns, published numerous short stories, and taught school.
    Mark.
    Mr. M. Cronin. Good afternoon. My name is Mark X. Cronin. As you've 
heard, I'm John's father and partner in our business, John's Crazy 
Socks.
    We are here today to share some best practices, or at least our 
practices, of working with people with differing abilities. And what we 
do in our business is simple: We want to show what's possible, we want 
to show what people with differing abilities can do if given a chance.
    In John's Crazy Socks, we have built a social enterprise, so we 
have a social mission and a business mission and they're indivisible. 
Our social mission shows the world what people with differing abilities 
can do and we give back by supporting and raising money for our charity 
partners, like the National Down Syndrome Society. But we can only 
succeed if we run a rigorous business. We compete with some of the 
world's largest and best companies--Amazon, Walmart, Target--and we 
must match or beat what they do. For us to do good, we have to do well.
    And that's why we hire people with differing abilities. Doing so 
serves our social mission, but it also serves our business mission. To 
succeed, we have to provide great service. We do same-day shipping. We 
make sure our customers are happy. And we hire people with differing 
abilities because they help us run that great business. We do not hire 
out of charity or altruism; we hire because it is good business.
    John told you that we have been fortunate enough to create 35 jobs 
with 18 held by people with differing abilities. Our starting pay is 
$12 an hour, $1 more than the New York State minimum wage. Our 
colleagues do not do minimum work, so we do not offer minimum pay.
    Too often, people with differing abilities are not offered jobs or 
they can only find work in sheltered workshops. They might be offered 
positions out of pity or charity. Our business demonstrates that people 
with differing abilities are just like the rest of us. They want 
meaningful work where they can make a contribution and receive fair 
pay. After all, that's how we got started.
    When John was finishing school, healthy and ready to go, he did not 
see many choices and the entrepreneur in him said great, I'll create my 
own job. What does it take to hire people with differing abilities? We 
simply need to focus on what people can do, not what they cannot do. 
Match the skills of the worker to the job.
    We operate a pick-and-pack warehouse. Our warehouse workers--we 
call them sock wranglers--those with differing abilities and 
neurotypicals all pass a test to prove they can do the job. No charity, 
just real work.
    We have no government support. We have no special programs. Yes, we 
make accommodations for our differently abled, but we also make 
accommodations for our neurotypical employees. We have created a 
unified workplace where people of differing abilities work side-by-side 
neurotypical employees. And everyone benefits. We have better 
productivity, better morale, better retention.
    And yet, we're talking about best practices. Small accommodations 
can make a difference. We make sure everyone has an email address and 
knows how to use email, even if they're not working with a computer. We 
give everyone a business card as a symbol of their professionalism and 
we watch as they give that out proudly to family and friends. We 
schedule regular social events outside of the office for all of our 
staff, like attending a chamber of commerce dinner. Having a job gives 
our employees standing in the community. And these are small 
initiatives, but they have a big impact on our differently abled 
population.
    We have learned that hiring the differently abled gives us a 
competitive advantage. The United States and other industrialized 
nations are now facing shortages of workers, and yet we have this 
great, untapped, natural resource in the differently abled. Employers 
will learn that those with differing abilities are an asset, not a 
liability, and the employers who learn this lesson the fastest will be 
at an advantage and have greater success.
    Our governments need to change, too. We need to see the differently 
abled as full-fledged citizens, people able to contribute, not helpless 
beings who need pity. We need laws that guarantee the same rights, 
including the same wages, as the neurotypical population. Here in the 
United States, the Fair Labor Standards Act of 1938--which is anything 
but fair--allows employers to pay people with disabilities less than a 
minimum wage. Just because you can pay people less does not make it 
right. And it may make you some extra money, but it will leave you 
morally bankrupt. We are working with the National Down Syndrome 
Society to support passage of the TIME Act to afford all people a fair 
and minimum wage in the U.S. and elsewhere.
    We have benefit programs that limit the ability of the disabled to 
work. Many of our colleagues who are differently abled can only work 
part time. Why? Because if they work too many hours they will lose 
their Medicaid and they cannot afford to do so. Take Aliya, one of our 
colleagues who has a form of autism and works as a sock wrangler. Aliya 
does a great job and would love to work 40 hours a week, but cannot 
because she cannot afford to lose her Medicaid. Don't we all want Aliya 
to work full time? Then why have laws that limit how much she can work?
    And my son, John--he does not receive benefits yet; however, when 
he needs those benefits in the future, he will need to choose between 
his benefits and the equity in the company he created. Do we want to 
prevent people from engaging in entrepreneurship?
    It is time to decouple the poor from the disabled in our means-
tested programs so that people with differing abilities can work full 
time and maximize their contributions to society. We want to encourage 
people to work and to pay taxes, so let's remove the disincentives.
    In the end, our message is simple: It is good business to hire 
people with differing abilities. John created his own future when he 
created John's Crazy Socks. We need more businesses that offer a future 
of meaningful work to all people. Employers here in the U.S. and around 
the world will come to learn that people with differing abilities make 
great employees.
    John and I, we're a couple of simple guys from Long Island. We're a 
couple of knuckleheads selling socks. [Laughter.] We have no special 
training. We have no special talents. If we can do this, anyone can. No 
more excuses. Let's show the world what's possible.
    Mr. J. Cronin. I love you, dad.
    Ms. Parker. Thank you, Mark. Thank you for your vision and creating 
a very successful business and social enterprise model for the rest of 
us to take note of and follow.
    You mentioned in your statement that the minimum wage floor does 
not apply to individuals with intellectual disabilities at this point. 
And there is a bill that's been introduced called the TIME Act that 
will address that issue. Will that bill also address the issue of part-
time work, which you also mentioned, meaning individuals with 
intellectual disabilities who do not have the option to work full time 
and keep their benefits? Or will that be addressed by different 
legislation?
    And, Sarah, please feel free to jump in.
    Mr. M. Cronin. Well, I mean, Sarah's more of the expert than me. 
The TIME Act will only prevent employers from paying people less than 
minimum wage. To change that issue about the limits on what people can 
work, the ABLE Act changes some of that on the margin, but that's a 
fundamental change that would have to--we would have to change the way 
we provide health insurance to working people who are disabled.
    And the reason it's critical, Medicaid covers more than what 
traditional health insurance pays. So even if you have traditional 
health insurance, there are some benefits that are crucial to many 
people with disabilities that they can only get through Medicaid.
    But, Sarah, you know, you're the expert on this.
    Ms. Weir. Sure. It's actually one of the main reasons we launched 
our Law Syndrome campaign last October. And Mark pointed this out in 
his testimony and it's exactly what we're trying to achieve with the 
work we do at the National Down Syndrome Society, and that's, 
essentially, we need to decouple the poor from the disabled in these 
means-tested programs.
    We still have very obsolete income and asset limitations that exist 
as far back as the 1960s and 1970s that prevent individuals with Down 
syndrome and other disabilities from keeping what they can earn and 
what they can save. ABLE was a huge step forward and it doesn't solve 
all of our issues, but it created a financial tool, a 529A or a 529 
ABLE account to allow individuals with disabilities to save their money 
in an ABLE account without putting benefits in jeopardy.
    Now, really, our focus on the employment side is to address the 
archaic, outdated income limitations. And we really feel at the 
National Down Syndrome Society and with the partnership of businesses, 
like John's Crazy Socks, $800 billion corporations like Voya Financial, 
from Main Street to Wall Street, the way to do that is to essentially 
eliminate the ability to pay people with disabilities far below minimum 
wage. The TIME Act is one example. We know that there are other efforts 
here on the Senate side to introduce new legislation to address this. 
And then we're exploring opportunities to address this administratively 
with the administration and look at ways to make sure that no new 14(c) 
certificate holders are created in a time when the supply and demand 
for sheltered workshops are the lowest it's been in, you know, recent 
decades.
    So there's multiple ways to do this. But from an equality and a 
human rights perspective, I think there's nothing more discriminatory 
than a 1938 provision that tells somebody who was born with Down 
syndrome that you're far less valued in an employment setting than 
anybody else.
    Ms. Parker. Thank you. We'll have to probably take the additional 
bills up in the next Congress because we're coming to the end of this 
Congress. But it sounds like there's some great work still to be done.
    I wanted to ask John, what is a typical day like for you at John's 
Crazy Socks?
    Mr. J. Cronin. When I get at work, I do--I handle all the--I do 
videos. I do a bunch of videos, like I tell you new ones and call it 
John's networking. We're doing--we're doing ``Mad Science,'' a ``Mad 
Science'' show. [Inaudible.] And we're doing ``Cooking Up Happiness.'' 
I'm doing it with a guest with differing abilities on ``Cooking Up 
Happiness.''
    Mr. M. Cronin. So it's videos that you do.
    Mr. J. Cronin. I do a--there's a video. I do a--I'm pulling--I'm 
pulling sock records. I help pick out socks, every order. And after 
that, I'm doing a video order or a video of that, and I write personal 
notes, personal videos, all that. I'm doing a big engagement right now. 
I'm just having fun.
    And my--and mostly I like making home deliveries. If fun things are 
going on--and I--[inaudible]--candy, and thinking of it is something 
sweet.
    Ms. Parker. Thank you, John. It sounds like you have a very busy 
day doing public relations, merchandising and shipping for the socks.
    And do you typically work part time, full time, does it vary from 
week to week depending on how busy things are?
    Mr. J. Cronin. Actually, I'm going to tell you I have work when I--
when I--I'm an entrepreneur, me and my dad. When we get up, we get in 
the office around 9. And some nights--some nights, around 6, 7 at 
night. We work--me and my dad work long hours. And I tell you that 
because we're going two more years. We're going on vacation in two more 
years. We're entrepreneurs. [Laughter.]
    Mr. M. Cronin. So we work hard, huh?
    Mr. J. Cronin. We work very hard and so it's very appreciated.
    Mr. M. Cronin. But you like it?
    Mr. J. Cronin. But, yes, I like it. [Laughter.] Yes.
    Ms. Parker. Thank you, John.
    Kayla, I had a question for you. You mentioned in your testimony 
that ``I am who I am today in large part because I was included with my 
peers throughout my childhood.''
    Ms. McKeon. Correct.
    Ms. Parker. And I'm wondering, what are your best memories of 
inclusion during your childhood? And what are also your memories of 
times when you wish you had been included more in your childhood?
    Ms. McKeon. You're making me think . . . It's been a while. I 
remember being in a classroom with a special education teacher and I 
didn't have a one-on-one yet. But I will probably get a one-on-one 
after I--sorry to say this--but I went into the woods. I was--I behaved 
like I shouldn't when I was little. And so I have this bad memory, but 
it was part to get a one-on-one that helped me gain independence, it 
helped me build the skills I needed to get up to where everybody else 
was.
    And back then, I was in high school and I still had this one-on-one 
who had to hold my hand in the hallways. I said, um, no, thank you, 
we're going backward, I don't want to backpedal, I'm independent and I 
can cross a hallway on my own. Well, they thought I needed that extra 
help where I did not need it, but I needed the help in the classroom 
where they were able to break down the instructions, make it easier for 
me to learn. And doing things more hands-on helped me greatly. So I'm 
not saying it was a bad memory, but it helped get that one-on-one that 
I needed to propel me to work harder.
    And one of my one-on-ones was Ms. Powers who helped me to be more 
independent and got me into a club in school that I really enjoyed. And 
again, it helped with the independence.
    Ms. Parker. Sounds like you had the extra support when you needed 
it, but also the freedom to say I can stand on my own two feet now, 
thank you, when you didn't need it. So I'm glad to hear that.
    Dr. Lazarus, I wanted to dig deeper into how teachers can be better 
prepared to instruct students with the most significant cognitive 
disabilities when they're trying to create an inclusive setting and the 
student may need quite a bit of extra support.
    Dr. Lazarus. What we've found is that the students, they understand 
each other. They want to work together, they want to be friends, they 
want to be colleagues. But it's often the adults who can get in the 
way. And teachers all, I truly believe, every single teacher out there 
wants what is best for students. And they also want what they--they 
want to feel like they are successful as teachers. And when they lack 
the skills to instruct some of their students, then they start 
thinking, well, maybe this isn't a good fit for this child.
    So what we really need is to create schools where all teachers have 
the confidence that they can successfully instruct all students. And so 
to get this, it involves teacher prep programs where all educators have 
the opportunity to instruct, learn how to instruct the widest range of 
students, the development of instructional materials and resources that 
are easy to use and can be used with students across the range of 
students.
    We also need to think about administrators and how they might 
support inclusion and the importance of all people in the school taking 
responsibility for the learning of all students. Too often we have 
silos that the special educator does this and the general educator does 
that, and if we can combine where everyone in the school cares about 
all students, then we will have much better places.
    Ms. Parker. Thank you, Dr. Lazarus.
    Before we run out of time, I want to make sure that we leave some 
time for any questions from the audience or online as the case may be.
    I'll give you a moment to think while I follow up with Dr. Lazarus.
    How does being included in regular classrooms with peers without 
disabilities help prepare students for better quality outcomes for 
adult life? Why is this a key goal?
    Dr. Lazarus. The early inclusion supports later inclusion. Early 
segregation almost ensures that there will be segregation later in 
life. That's so important to think about, what do we want in our 
communities, in our country? And when we think about our schools are 
preparing our future corporate leaders, our future civic leaders, our 
faith leaders, and if those individuals are comfortable with--familiar 
with--individuals who have a wide variety of characteristics, whether 
it be ethnic diversity, English learners or individuals with 
significant cognitive disabilities, we are creating communities that 
value all individuals. And I just see inclusion right from the get-go 
as being a really important part of that.
    Mr. M. Cronin. If I could add to that--you know, at a personal 
level and in our business. So John is the youngest of three sons. John 
benefited from his older brothers leading him and taking care of him. 
But his older brothers benefited from John and they are better people 
because of it. And in our workplace--so we have this unified workplace. 
We see minor miracles every day with our differently abled. But our 
neurotypical staff, they're better off, they're happier. And that 
diversity that we bring benefits the business. So everyone--it's not 
that inclusion doesn't just benefit the differently abled, it benefits 
everybody.
    Dr. Lazarus. And I totally agree with Mark. That is just so, so 
true.
    Ms. Weir. Well, and I echo both what Dr. Lazarus and Mark said. But 
I think it comes down to the treatment of people with disabilities. It 
should be no different than anyone else. The way and the reason we 
fight for inclusion for students with Down syndrome is so they have 
access to the general curriculum, they have access to a great 
education. And the expectation when they graduate from high school or 
college needs to be employment, just like everyone else.
    Ms. Parker. We have run out of time, unless there's a burning 
question from the audience.
    And if not, I will thank the panelists for bringing us both 
tangible examples as well as the challenges of creating a truly 
inclusive society. I am so encouraged by the success that you are, 
Kayla, the success that you are, John, and the success that you are 
encouraging amongst your peers and urging others in your life to 
achieve by changing laws that are holding you back. And so I thank you 
for being here today. Thank you for your insights.
    And I hope that everyone in the audience will join me in thanking 
them. [Applause.]
    Ms. McKeon. And thank you for having all of us. We very much 
appreciate it.
    Ms. Parker. Our pleasure.
    [Whereupon, at 4:36 p.m., the briefing ended.]
    

                            A P P E N D I X 

    =======================================================================




    Good afternoon. My name is Sara Hart Weir, and I am the President 
and CEO of the world's largest Down syndrome advocacy organization--the 
National Down Syndrome Society (NDSS).
    On behalf of NDSS, the leading human rights organization for all 
individuals with Down syndrome, it is an honor to sit at this table 
(today) to present to the Helsinki Commission with Dr. Lazarus, one of 
our favorite NDSS #DSWORKS partners, Mark and John Cronin, from John's 
Crazy Socks and of course, my esteemed colleague, Kayla McKeon.
    At NDSS, we believe if you're not at the table, you're on the menu. 
I, personally, want to thank the Helsinki Commission, for today's 
imperative discussion and lending a critical voice to a population, 
even in our great nation, the United States of America, and still in 
2018, that is far more discriminated against more than any other 
community.
    Today's topic--``A TRULY INCLUSIVE SOCIETY: ENCOURAGING THE ABILITY 
IN DISABILITY'' is something we live and breathe at the National Down 
Syndrome Society--as we strive to achieve equality for all Americans 
with Down syndrome in the U.S.
    Our great nation's first mottos--``E Pluribus Unum''--is embedded 
in almost every fabric of our country's rich history. The phrase is 
used on our currency, the seal of the President, Vice President, United 
States Congress, of the United States House of Representatives, of the 
United States Senate and on the seal of the United States Supreme 
Court. It is cemented in our country's rich history, culture and 
values--life, liberty and the pursuit of happiness--e pluribus unum 
comes from the Latin phrase meaning ``OUT of many, ONE.''
    From this belief, springs a unifying purpose for our nation. 
Equality. Unfortunately, in the United States, and around the world 
people with Down syndrome and other disabilities are not treated as 
one.
    At NDSS, we believe no matter your differences or abilities you 
should have a fair shot at the American Dream--and we work hard each 
and every day to ensure America's motto is upheld for people with Down 
syndrome and that ONE truly means ONE.
    At NDSS, \1/4\ of our staff have Down syndrome and work across all 
of our programs and departments. Not a single decision within our 
organization is made without the input of our self-advocates. At NDSS, 
our programs, including:

    <bullet>  our National Advocacy and Public Policy Center

    <bullet>  our #DSWORKS Employment Program--our Health Promotion 
and Resources Program

    These programs are dedicated to advancing proactive policies and 
providing invaluable resources on issues across the lifespan, from 
birth to old age, across five critical pillars: healthcare and 
research, education, employment, community integration and economic 
self-sufficiency.
    Next year, we will celebrate NDSS' 40th anniversary. During this 
time, one of the most important advancements for individuals with Down 
syndrome has been an increased access to and advancements in 
healthcare. The result is a dramatic increase in life expectancy of 
individuals with Down syndrome from 25 years old in 1983, \1\ to about 
60 years old today \2\--all a result of early detection of co-occurring 
conditions like congenital heart defects, quality dental care and of 
course, inclusion.
---------------------------------------------------------------------------
\1\  https://www.ncbi.nlm.nih.gov/pmc/articles/PMC4445685/
\2\  https://academic.oup.com/eurpub/article/17/2/221/435114
---------------------------------------------------------------------------
    From its origins in 1979, NDSS has been involved in so many federal 
and state advocacy as well as judicial efforts that have helped 
individuals with all disabilities become more included in society:

    <bullet>  The Individuals with Disabilities Education Act (Public 
Law 101-476), or ``IDEA'' that guarantees students with disabilities 
their right to be educated alongside their peers in their neighborhood 
school;

    <bullet>  The Americans with Disabilities Act (Public Law 101-336), 
or ``ADA,'' that prohibits discrimination against individuals with 
disabilities in all areas of public life and the subsequent Olmstead 
Supreme Court decision that requires public agencies to provide 
services in the most integrated settings possible;

    <bullet>  The shutdown of the Willowbrook Institution in New York 
that was brought to the forefront of the public's conscious; and

    <bullet>  The landmark passage of the Stephen Beck Jr., Achieving a 
Better Life Experience Act (Public Law 113-295), best known as the 
``ABLE Act,'' that allows individuals with disabilities to save money 
without it affecting their benefits.

    These accomplishments and milestones were vital to ensure 
individuals with disabilities have access and adequate supports to the 
basic liberties those without disabilities enjoy--education, community 
integration, housing, employment and savings.
    Despite these significant advancements, we have a long way to go. 
People with Down syndrome are still held back and confined to laws that 
were put in place as long ago as the 1930's--a time where the life 
expectancy rate was very, very low, a time when we were still 
institutionalizing people with Down syndrome and perceptions of the 
people with Down syndrome were not even realized.
    Today:

    <bullet>  Individuals with disabilities still do not have access to 
marriage equality

    <bullet>  Individuals with disabilities cannot maintain their vital 
benefits while working, despite being ready, willing and able to work

    <bullet>  Though we fought for IDEA, many students still do not 
have access to the inclusive education to which they are entitled and 
is the basis of a life of inclusion

    <bullet>  Many cannot choose where they want to live as housing 
options for individuals with Intellectual and Developmental 
Disabilities especially are extremely limited

    <bullet>  Many are still not economically self-sufficient despite 
ABLE accounts being open to qualifying individuals across the nation

    Outrageously, many are still not getting paid the minimum wage that 
all other Americans are entitled to. Under Section 14(c) of the Fair 
Labor Standards Act (of 1938), businesses can obtain a special wage 
certificate from the Department of Labor to pay individuals with 
disabilities below minimum wage, sometimes as little as thirty cents an 
hour--the only group of people it is still legal to pay below minimum 
wage. For purposes of conscious, inclusion and equality, this is 
unacceptable.
    Last year, NDSS launched our campaign to end #LawSyndrome to draw 
attention to these issues and advocate for change. Down syndrome 
doesn't hold anyone back but rather these antiquated laws prevent 
individuals from fulfilling their potential. We will not stop until 
every single American with Down syndrome has the same rights as every 
other American.
    One of my proudest accomplishments at NDSS is ensuring that 
individuals with Down syndrome are not only part of our incredible team 
and organization, but they are at every table where key decisions about 
their future are made. When you have a seat at the table, you have a 
say in the decisions that are made and when it's your table, you make 
the decisions--this is how we end #LawSyndrome. I am honored to 
introduce my colleague who has not only earned a seat the table--she 
owns the table and Capitol Hill.


    Good afternoon, everyone. To echo Sara's words, thank you to 
Allison and the Helsinki Commission for inviting me to speak.
    My name is Kayla McKeon and I am the Manager of Grassroots Advocacy 
at the National Down Syndrome Society. I am the first registered 
lobbyist who just happens to have Down syndrome. Down syndrome doesn't 
define me, Kayla, and it definitely does not stop me. What limits me 
and my fellow advocates and friends with Down syndrome and other 
disabilities across our great country is Law Syndrome.
    As Sara mentioned, Law Syndrome is a series of VERY old laws that 
were passed when I wouldn't have lived past my adolescence or even my 
childhood, and if I did, I would not have left the hospital with my 
parents because people with Down syndrome were still being 
institutionalized. These laws were put in place when the social 
acceptance of individuals with disabilities was at an all-time low.
    I was lucky in my upbringing in Syracuse, New York. When I was 18 
months old, my parents enrolled me in an early education program. I 
progressed through school alongside my classmates and graduated at age 
18. As soon as inclusive education became possible, I was always in an 
inclusive setting. I won't deny there were bumps and stumbling blocks 
along the way, but my parents always thought it was best for me to be 
included with my classmates and placed in settings that challenged me 
to reach my highest potential. There were times when they pushed me, 
but it was always because they knew I could succeed.
    I earned awards in eighth and ninth grade for character, 
commitment, courage, English and math. My final grade for algebra was 
in the 90's and I got a 93 on my math regents' exam. If you are from 
New York, you know how tough that was.
    Later, an agency known as Vocational & Educational Services for 
Individuals with Disabilities, or VESID, and my high school set up a 
program for me to take an office technology program. It was a six-month 
certification program for adults. They arranged the program for me to 
go through it twice. I passed the program, earned the certificate and, 
as a result, I am pretty fast on a keyboard. I was even the 
commencement speaker.
    I also attended Onondaga Community College taking some non-credit 
courses, but I thought to myself, it doesn't make sense that I'm doing 
all the work without earning any credits! But I liked the classes, so I 
began taking one course per semester for credit. I can happily say I am 
now more than halfway to earning my associate's degree. I start back up 
later this month. I love taking classes with my peers. Many of my 
classmates are a little bit younger than me now, but so what! I started 
advocating a number of years ago. I started educating others who are 
differently abled by going to elementary schools, then moved on to 
middle schools, colleges and the school of nursing. I try to motivate 
them to do the best that they can do. My message to kids in school is 
to persevere. I am who I am today in large part because I was included 
with my peers throughout my childhood.
    One day in Syracuse, I met John Katko at a baseball game. He was 
running for the U.S. House of Representatives. He handed me his 
business card so I handed him mine. He called me later and said if he 
was elected he wanted me to come and work for him. When he won, I 
became an intern in his Syracuse office. I represented him at different 
events and did office work. In June of last year, he asked me to go 
with him to a disability conference in Washington. We didn't realize at 
the time it was with the National Down Syndrome Society. It was there 
at the end of the meeting that Sara Hart Weir, our President and CEO of 
NDSS, offered me the job of Manager of Grassroots Advocacy. I started 
last October.
    With my position as the first registered lobbyist with Down 
syndrome, I go to Capitol Hill and speak to many Members of Congress 
and their staff on issues that are important to me. I helped lobby to 
pass the original ABLE Act as a volunteer for NDSS and now the ABLE to 
Work Act and the ABLE Financial Planning Act as a lobbyist. These laws 
allow me and my friends who are differently-abled to have savings 
accounts and meaningful employment without giving up our benefits.
    We are now tirelessly working on ending #LawSyndrome. Down syndrome 
doesn't stop us. It never stopped us. It is just some old, antiquated 
laws that hold us back. One example is the 80-year-old provision within 
the Fair Labor Standards Act known as Section 14(c) that Sara 
mentioned. People like me are still getting paid cents an hour, while 
other individuals performing the same tasks are paid at least minimum 
wage. These issues segregate us from the rest of society. They show we 
are still viewed as ``less than.'' Society is ready to move past these 
laws. When will the government catch up?
    We have a long way to go for individuals with Down syndrome to be 
fully included in society. To me, having Down syndrome is who I am but 
it has never stopped me for achieving my own hopes, dreams and 
passions. What I want for my life and all individuals with disabilities 
is for us all to be treated just like everyone else. I want to live the 
American Dream.


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    Good afternoon. My name is John Cronin, and I am the co-founder and 
Chief Happiness Officer of John's Crazy Socks. I come here to stand up 
for people with Down syndrome and all people with differing abilities.
    I have Down syndrome and Down syndrome never holds me back. I am 
22-years old and work hard every day to show the world that people with 
Down syndrome are ready, willing and able to work. Give us a chance and 
we can be successful.
    You may have heard about John's Crazy Socks. We have a mission to 
spread happiness. We have a good story, but we are a good business too. 
We offer 2,300 different socks. We have shipped our socks to every 
state and 80 different countries. This year we will ship over 170,000 
orders and earn over $6 million. I may be cute, but I run a serious 
business.
    I started this business with my dad, Mark. It was my idea and I 
came up with the name. My Dad believed in me and gave me a chance. I 
love my Dad. I work hard every day. I love my business.
    Let me tell you why I started John's Crazy Socks. In the fall of 
2016, I began my last year of school. I needed to decide what I would 
do when school ended. I had received a good education at Huntington 
High School. I was healthy and ready to go. I looked around but saw few 
choices and opportunities. I knew I could do more. I wanted a good job 
just like my brothers Patrick and Jamie.
    I decided to create my own job. I told my dad that I wanted to go 
into business with him. I came up with the idea to sell crazy socks 
because I had always worn and loved colorful and fun socks. We opened 
John's Crazy Socks in December 2016. We were entrepreneurs and we took 
a chance. Now, everyone wears my socks, even movie stars, Prime 
Ministers and Presidents.
    We have created 35 jobs and 18 of my colleagues have a differing 
ability. We make videos that have been seen over 4 million times. We 
have raised over $150,000 for our charity partners. We are making 
John's Crazy Socks a success and we owe it to our colleagues.
    I can lead my own business because I had great teachers. I want to 
shout out to Dr. Erica Murphy-Jessen and Patricia Klee, my speech 
teacher. I can lead my own business because I played Special Olympics 
sports. I can lead my own business because my Dad gave me a chance.
    I want you to know what people like me can do. Give us a chance and 
watch what we can do.


    Good afternoon. My name is Mark X. Cronin and I am John's father 
and partner in John's Crazy Socks. We work to show what is possible, we 
work to show what people with a differing ability can do if given a 
chance.
    In John's Crazy Socks, we have built a social enterprise; we have a 
social and a business mission and they are indivisible. Our social 
mission shows the world what people with a differing ability can do and 
we give back by supporting and raising money for our charity partners. 
But we can only succeed if we run a rigorous business. We compete with 
some of the largest and best companies in the world--Amazon, Wal-mart 
and Target--and we must match or beat what they offer. To do good, we 
have to do well.
    Hiring people with differing abilities serves our social mission, 
but it also serves our business mission. To succeed, we must provide 
great service, so we do same day shipping and that makes our customers 
happy. We hire people with differing abilities because they help us 
fulfill our mission. We do not hire people out of charity or altruism. 
We hire because it is good for business.
    John told you that we have been fortunate enough to create 35 jobs 
with 18 held by people with differing abilities. Our starting pay is 
$12 per hour, $1 more than the New York State minimum wage. Our 
colleagues do not do minimum work, so we do not offer minimum pay. The 
sad reality is that we could pay less, much less, and many of our 
workers and their families would still welcome the job because 
meaningful work is so scarce. But that would be wrong. Taking advantage 
of vulnerable workers may put money in the bank, but it would be 
morally bankrupt.
    Too often, people with differing abilities are not offered jobs or 
they can only find work in sheltered workshops. They might be offered 
positions out of pity or charity. Our business demonstrates that people 
with differing abilities are just like the rest of us: they want 
meaningful work where they can make a contribution and receive fair 
pay.
    What does it take to hire people with differing abilities? We 
simply need to focus on what people can do, not what they cannot do. 
Match the skills of the worker to the job. We operate a pick and pack 
warehouse. Our warehouse workers--those with differing abilities and 
neuro-typical--all pass a test to prove they can do the job. No 
charity, just real work.
    We have no government support and no special programs. Yes, we make 
accommodations for our differing abled, but we also make accommodations 
for our neuro-typical employees. We have created a unified workplace 
where people of differing abilities work side-by-side with neuro-
typical employees. And everyone benefits. We have better productivity, 
better morale and better retention.
    And yet small accommodations can make a big difference. We make 
sure everyone has an email address and knows how to use email. We give 
everyone a business card as a symbol of their professionalism and watch 
as they proudly give them out to family and friends. And we schedule 
regular social events outside the office for all of our staff like 
attending a Chamber of Commerce dinner. Having a job gives our 
employees standing it the community. These are small initiatives, but 
they have a big impact on our differing abled population.
    We have learned that hiring the differently abled gives us a 
competitive advantage. The United States and other nations are now 
facing shortages of workers, and yet we have a great untapped natural 
resource in the differently abled. Employers will learn that those with 
differing abilities are an asset, not a liability. And the employers 
who learn this lesson the fastest, will be at an advantage and find 
greater success.
    Our governments need to make changes too. We need to see the 
differently abled as full-fledged citizens, people able to contribute, 
not helpless beings who need pity. We need laws that guarantee the same 
rights--including the same wages--as the neuro-typical population. Here 
in the U.S., the Fair Labor Standards Act of 1938 allows employers to 
pay the people with disabilities less than a minimum wage. We are 
working with the National Down Syndrome Society to support passage of 
the TIME Act to afford all people a fair, minimum wage.
    In the U.S. and elsewhere, we have benefits programs that limit the 
ability of the disabled to work. Our colleagues with disabilities work 
part-time. Why? Because if they work too many hours, they will lose 
their Medicaid and they cannot afford to do so. Take Aliya, who has a 
form of autism and works as a Sock Wrangler. Aliya does a great job and 
would love to work 40 hours per week but cannot because she cannot 
afford to lose her Medicaid. Don't we all want Aliya to work full-time? 
Then why have laws that limit how much she can work?
    And my son John, he does not receive benefits yet. However, when he 
needs those benefits in the future, he will need to choose between his 
benefits and equity in the company that he has created. Do we want to 
prevent people from engaging in entrepreneurship?
    It is time to decouple the poor from the disabled in our means-
tested programs so that people with differing abilities can work full-
time and maximize their contributions to society. We want to encourage 
people to work and to pay taxes, so let's remove the disincentives to 
work.
    In the end, our message is simple. It is good business to hire 
people with differing abilities. John created his own future when he 
created John's Crazy Socks. We need more businesses that offer a future 
of meaningful work to all people. Employers here in the U.S. and around 
the world will come to learn that people with differing abilities make 
great employees.
    John and I are a couple of simple guys from Long Island, a couple 
of knuckleheads selling socks. We have no special training and no 
special talents. If we can do this, anyone can. No more excuses. Let's 
show the world what is possible.

                                    [all]

  

            This is an official publication of the Commission on
                    Security and Cooperation in Europe.

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                  This publication is intended to document
                  developments and trends in participating
                  States of the Organization for Security
                     and Cooperation in Europe (OSCE).

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

           All Commission publications may be freely reproduced,
            in any form, with appropriate credit. The Commission
            encourages the widest possible dissemination of its
                               publications.

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                      www.csce.gov       @HelsinkiComm

                 The Commission's Web site provides access
                 to the latest press releases and reports,
                as well as hearings and briefings. Using the
         Commission's electronic subscription service, readers are
            able to receive press releases, articles, and other
          materials by topic or countries of particular interest.

                          Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
